          A Primer on Postal Costing Issues




                             March 20, 2012




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-12-008
U.S. Postal Service Office of Inspector General                                                   March 20, 2012
A Primer on Postal Costing Issues                                                               RARC-WP-12-008



                         A Primer on Postal Costing Issues


                                        Executive Summary

The current system used to estimate the cost of postal products has not been changed
fundamentally in many years, though significant inputs are updated annually. There
have been calls for an examination of the accuracy and relevance of the system and for
specific changes to be made. There is merit to some of these suggestions, as discussed
below. In particular, the business needs of the organization have changed since the
passage of the Postal Accountability and Enhancement Act of 2006 (PAEA).1 Those
changes include the need for more finely disaggregated cost information, as well as for
cost estimates more closely tied to operations. This paper includes a brief discussion of
postal costing and identifies and discusses the most salient of the concerns that have
been raised by executives and analysts at the U.S. Postal Service® (the Postal Service)
and by customers.

The Postal Regulatory Commission (PRC), the Board of Governors (BOG), and Postal
Service management use cost estimates to evaluate the financial performance of
products and judge compliance with the PAEA.2 Currently, the Postal Service allocates
only 55 percent of its costs to products (attributable costs), leaving the remaining
45 percent of costs as institutional. Most of the calls for examination concern the
accuracy of the attribution methods and assumptions and the issues related to having
such a large amount of institutional costs. The main issues that have been raised are:

    1. Should the Postal Service use fully distributed costs (a methodology for
       distributing institutional costs to products) to evaluate the financial performance
       of products?

    2. How should the system be adapted to reflect the excess capacity currently
       present in the postal network (short-run versus long-run marginal costs)?

    3. Should the Postal Service move toward developing bottom-up costs?

    4. How should the new postal data sources (such as Intelligent Mail barcode or
       IMb) be used in the costing system to improve accuracy and reduce costs?

    5. What can be done to improve the timeliness of cost studies?



1
 P.L. 109-435 (2006).
2
 The PRC examines whether or not products cover their cost, a requirement for competitive products (39 U.S.C. §
3633(a)) and a factor that must be considered for market dominant products (39 U.S.C. § 3622(c)(2)). The PRC also
ensures that workshare discounts do not exceed their avoided costs, unless certain exemptions apply. 39 U.S.C. §
3622(e)(2).


                                                        i
U.S. Postal Service Office of Inspector General                                                      March 20, 2012
A Primer on Postal Costing Issues                                                                  RARC-WP-12-008


The seven key points that emerge from this discussion are:

    1. The current costing system is a time-tested, well-recognized system, reviewed by
       many agencies, and lauded by many well-known economists. On the other hand,
       the system relies upon data gathered at significant expense, and its attribution
       methods have been questioned by critics of the system. Opportunities exist to
       make important improvements, though care should be taken to preserve the
       elements of the system that are of value.

    2. Fully-distributed cost (FDC) methods that allocate institutional costs to products
       may be misleading indicators of a product’s financial performance. An important
       achievement of the current cost system is the estimation of economic costs, as
       these are highly valuable for product pricing and development.

    3. The current volume decline has created a strong interest in short-run cost
       measurement, as proponents believe that the use of long-run costs to set prices
       unfairly burdens their products with costs associated with excess capacity. Using
       short-run costs for pricing can pose risks, as short-run costs can be difficult to
       measure and can fluctuate rapidly.

    4. Bottom-up costing3 may significantly improve the utility of the cost system as a
       tool for management. The introduction of more disaggregated cost information,
       however, carries with it certain difficulties that must be overcome, including the
       potential disruption associated with moving to a new cost system, the difficulty of
       reconciling bottom-up costs with total costs, and the significant resource
       commitment that would be needed to implement the new system.

    5. The question of what new data can be used to improve the cost systems is under
       study at the Postal Service. At this point, the new data systems such as IMb may
       not be mature enough to use in support of the cost system in any material way.
       However, the goal of cost system improvement needs to be a driver of decisions
       governing the development of operational data systems.

    6. Some of the periodic cost studies that support the cost systems are significantly
       out of date and should be updated as they no longer reflect operational reality.
       Also, in some cases, the methodology originally used was not accepted by all
       analysts and may need to be revisited (e.g., mail processing volume variability).4

    7. The Postal Service should develop a vision for what cost data it will need in the
       future to support management decisions and develop an implementation plan to


3
  Bottom-up costing refers to estimating the cost of each individual element of the mail handling process and then
adding together those costs to develop the product cost.
4
  Volume variability refers to how much costs vary with respect to a change in volume. The Postal Service has
previously argued that mail processing costs are less than 100 percent volume variable. In other words, if volume
increases by one percent, costs will increase by less than 1 percent. The PRC disagrees; it believes that mail
processing costs are close to 100 percent volume variable. After PAEA, the Postal Service adopted the PRC’s
methodology.


                                                          ii
U.S. Postal Service Office of Inspector General                             March 20, 2012
A Primer on Postal Costing Issues                                         RARC-WP-12-008


        move toward this vision, including the development and adjustment of
        operational data systems to provide useful inputs to the cost system.




                                                  iii
U.S. Postal Service Office of Inspector General                                                                   March 20, 2012
A Primer on Postal Costing Issues                                                                               RARC-WP-12-008




                                                 Table of Contents

Introduction ..................................................................................................................... 1 

Basics of Postal Costing.................................................................................................. 2 

Evaluation of the Current System .................................................................................... 3 
          Should the Postal Service Use Fully Distributed Costs To
          Evaluate the Financial Performance of Products? ................................................ 3 
          How Should the System be Adapted To Reflect the Excess
          Capacity Currently Present in the Postal Network (Short-Run
          Versus Long-Run Marginal Costs)?...................................................................... 5 
          Should the Postal Service Move Toward Developing Bottom-Up
          Costs? .................................................................................................................. 6 
          How Should the New Postal Data Sources (Such as IMb) Be
          Used in the Costing System To Improve Accuracy and Reduce
          Costs? .................................................................................................................. 7 
          What Can Be Done To Improve the Timeliness of Cost Studies? ........................ 7 

Cost Data Needs in the Future ........................................................................................ 8 
          Cost Data Needs Will Change with Decline in Physical Mail and
          Increase in Digital Mail ......................................................................................... 9 
          Incentive Regulation Drives the Need for Activity-Based Costing....................... 10 
          Cost Data Needs To Support Negotiated Service Agreements .......................... 11 

Conclusion .................................................................................................................... 11 




                                                                 iv
U.S. Postal Service Office of Inspector General                                                              March 20, 2012
A Primer on Postal Costing Issues                                                                          RARC-WP-12-008




                                                       Tables

Table 1             Marginal Cost Example ....................................................................... 14 

Table 2             Public Cost and Revenue Analysis FY 2010 (in millions) .................... 24 

Table 3             Three-Product Firm Example............................................................... 25 

Table 4             Three-Product Firm Example, Institutional Cost Allocated
                    Evenly .................................................................................................. 26 

Table 5             Three-Product Firm Example, Institutional Cost Allocated
                    Based on Volume ................................................................................ 27 

Table 6             Three-Product Firm Example, Institutional Cost Allocated
                    Based on Attributable Costs ................................................................ 27 

Table 7             Long-Run (LR) and Temporary Short-Run (SR)
                    Attributable Costs Per Piece (FY 2008) ............................................... 30 


                                                      Figures

Figure 1            Marginal Cost for Postal Products Falls as Volume
                    Increases ............................................................................................. 15 

Figure 2            Find Total Cost of Each Cost Activity .................................................. 16 

Figure 3            Measure Volume Variable Costs ......................................................... 17 

Figure 4            Distribute Volume Variable Costs to Product ....................................... 17 

Figure 5            Estimate the Volume Variable Cost of Each Segment......................... 19 

Figure 6            Attributable and Institutional Costs ...................................................... 20 

Figure 7            Components of Institutional Cost ......................................................... 21 

Figure 8            Price above Marginal Cost is No Guarantee that Price
                    Exceeds Cost ...................................................................................... 22 

Figure 9            Incremental Cost ................................................................................. 23




                                                             v
U.S. Postal Service Office of Inspector General                                                         March 20, 2012
A Primer on Postal Costing Issues                                                                     RARC-WP-12-008




                                                Appendices

Appendix A          Marginal Costs..................................................................................... 14 

Appendix B          Incremental Costs................................................................................ 22 

Appendix C          Fully Distributed Cost .......................................................................... 25 

Appendix D          Short-Run versus Long-Run Marginal Costs ....................................... 29 

Appendix E          Bottom-Up Costing .............................................................................. 32 

Appendix F          New Data Sources............................................................................... 34 

Appendix G          Timeliness of Cost Data ...................................................................... 36 




                                                          vi
U.S. Postal Service Office of Inspector General                                                      March 20, 2012
A Primer on Postal Costing Issues                                                                  RARC-WP-12-008




                          A Primer on Postal Costing Issues


Introduction
The U.S. Postal Service’s product costing system5 has been developed over the past
40 years, roughly since the passage of the Postal Reorganization Act (PRA). Until 2006
its main use was found in rate cases, to assist the Postal Rate Commission6 in
determining the rate structure, though it has also been used by postal management to
develop pricing proposals and to assist in field budgeting, investment decisions, and
product marketing. Since the enactment of the Postal Accountability and Enhancement
Act (PAEA) in 2006,7 the newly named Postal Regulatory Commission (PRC) has used
the system to ensure that competitive products are not subsidized by the customers of
market dominant products (a requirement under PAEA) and to establish the contribution
of competitive products to institutional cost (a minimum contribution is set by the PRC
under PAEA).8 The PRC also uses the cost estimates to verify that workshare discounts
do not exceed avoided cost (unless certain exceptions are met) and that the revenue
exceeds costs for market dominant products.9 Further, the Board of Governors (BOG)
and Postal Service management use the cost estimates to evaluate discounts and the
price of new products.

There have been calls for change in the system, both from Postal Service personnel
and from postal customers.10 As discussed in this paper, there is merit to some of these
suggestions, although some are good ideas that present resource challenges.
Currently, the Postal Service’s finance function is leading an examination of the cost
system, with input from mailers and postal executives. The project aims to identify the
appropriate changes that should be made to the system. After a general introduction to
postal costing, this paper briefly addresses five of the main issues that have been
recently raised and discusses the need for the Postal Service to develop a vision for its
future cost data needs. A more detailed discussion of postal costing and the issues
involved is included in the appendices.




5
  The Postal Service’s “costing system” refers primarily to the Cost and Revenue Analysis (CRA) and to the sampling
systems that feed the CRA, including the In-Office Cost System (IOCS), the Carrier Cost System (CCS), and the
Transportation Cost System (TRACS).
6
  Prior to PAEA, the regulatory body was called the Postal Rate Commission. PAEA changed the name to Postal
Regulatory Commission.
7
  P.L. 109-435.
8
  See 39 U.S.C. § 3633.
9
  See 39 U.S.C. § 3622(c) and (e).
10
   For example, see Jessica Dauer Lowrance and Gregory Dawson, “Rationalizing Postal Costing in the 21st Century”
                       th
(presentation at the 30 Annual Eastern Conference of the Center for Research in Regulated Industries, May 18-21,
2011) The Postal Journal (2011) at http://postaljournal.com/2011/04/rationalizing-postal-costing-in-the-21st-century/.


                                                          1
U.S. Postal Service Office of Inspector General                                                March 20, 2012
A Primer on Postal Costing Issues                                                            RARC-WP-12-008


Basics of Postal Costing
The current cost system was developed over time with much thought and insight from
well-known economists including William Baumol,11 John Panzar,12 and William
Vickrey.13 It is worth noting that the Postal Service’s cost procedures have been
thoroughly reviewed over the years. In addition to numerous audits, the cost
methodologies are reviewed annually by the PRC and have been debated during
numerous public proceedings. In addition, a joint 1999 study by the Postal Service, the
PRC, and the Government Accountability Office found Postal Service costing methods
adequate for ratemaking purposes.14

     The Postal Service is      The cost system was developed with a specific framework in
     a multiproduct firm,       mind in order to address the cost characteristics of the Postal
     in a network               Service organization. Specifically, the Postal Service is a
     industry, and has          multiproduct firm, has many common costs, and operates in a
     many common                network industry. Any changes to the cost system must be
     costs.                     able to address these characteristics.

          The Postal Service is a multiproduct firm – This characteristic is important
           because average cost, the fundamental cost datum
           useful in single product industries, has no meaning in a       The concept of
           multiproduct firm. For example, imagine a simple               average cost has no
           industry in which firms produce widgets and nothing            meaning in a multi-
           else. In such an industry, annual unit widget costs can        product firm like the
           be easily calculated by dividing the total annual cost by      Postal Service.
           the number of widgets. However, the Postal Service
           delivers several different types of product (e.g., delivered letters, parcels). Each
           of these products has different cost characteristics, so dividing total cost by
           number of total pieces of mail does not provide a meaningful number.

          The Postal Service has many common costs – There are many activities in
           which several of the Postal Service’s products are handled simultaneously. An
           excellent example is the time spent by a mail carrier on his delivery route. The
           carrier leaves the carrier office and passes by each address, all the time carrying
           different products (e.g., letters, flats, parcels). The cost of the carrier time
           expended in such an activity is both fixed with respect to volume and common to
           many products. Therefore, there is no justifiable economic algorithm for
           determining how much of such common costs should be assigned to an
           individual product.

          The Postal Service is a network industry – In network industries there are cost
           advantages to handling products together, either more of the same product

11
   William J. Baumol, Direct Testimony before the PRC, Dockets No. R87-1, and R90-1, Remand.
12
   John C. Panzar, Rebuttal Testimony before the PRC, Docket No. R90-1, Remand, and Direct Testimony before the
PRC, Docket No. R97-1.
13
   William Vickrey, Direct Testimony before the PRC, Docket No. R74-1.
14
   A.T. Kearney, Summary Report of the Data Quality Study, 1999.


                                                       2
U.S. Postal Service Office of Inspector General                                                       March 20, 2012
A Primer on Postal Costing Issues                                                                   RARC-WP-12-008


         (economies of scale) or several different products (economies of scope). In the
         postal example, it may be cheaper on a per piece basis to deliver a letter and a
         package together than to have separate delivery routes for each type of mail
         product. As a practical matter, the presence of such “economies” makes
         estimating the cost of products difficult, because costs vary as more (or less) of a
         specific product or service is provided.

Given the complexity associated with costing products in a multiproduct network
industry like the postal industry, the cost framework was developed to answer two key
questions:

         1. What is the additional cost of providing
            more of a given product in the long           Marginal cost measures the
                 15                                       additional cost of providing
            run? This cost is referred to as
                                                          additional pieces of mail in the
            marginal cost. Marginal cost is useful in     long run.
            determining the price floor of a product,
            since the Postal Service’s net income can only be improved wherever
            marginal revenue (price) equals or exceeds marginal cost. Due to economies
            of scale, the marginal cost of postal products declines as volume increases.
            The reverse is also true, that is, marginal cost increases as volume
            decreases. Marginal cost is discussed in more detail in Appendix A.

         2. What is the total cost associated with           Incremental costs are costs
            providing the product — in other words,          that would not exist if the
            what costs would not exist if the product        product were not offered.
            did not exist? This metric is referred to as
            incremental cost and it is useful in evaluating whether the Postal Service
            should enter or continue in a specific line of business. Clearly, if a product
            earns revenues that are less than the total cost it incurs, there likely is not a
            good business reason to provide it. Incremental costs are discussed in more
            detail in Appendix B.


Evaluation of the Current System
Five key questions have surfaced as a result of the recent critiques of the costing
system. Each issue is discussed briefly below and in more detail in the appendices.

Should the Postal Service Use Fully Distributed Costs To Evaluate the Financial
Performance of Products?

As discussed above, the Postal Service’s cost systems estimate the marginal cost of
each product. The marginal cost of a product should be viewed as the absolute price


15
   The “long run” refers to a time period long enough to allow for significant adjustments to the volume change to be
made. While the exact timeframe is not precisely defined, the time period historically considered appropriate for
postal costing is around 3 years.


                                                           3
U.S. Postal Service Office of Inspector General                                                        March 20, 2012
A Primer on Postal Costing Issues                                                                    RARC-WP-12-008


floor, since it is not financially viable to price below marginal cost in the long term.16
However, 45 percent of total costs do not change when volume rises or falls. These
   If every product were      costs, which are not allocated to specific products, are termed
   priced at its marginal     “institutional costs.” Therefore, if every product were priced at
   cost, the Postal           its marginal cost, the Postal Service would lose a lot of money
   Service would lose         each year. Hence, an important issue is, for each product how
   money.                     much higher than its marginal cost to set its price.

                           Over the years, some have suggested that the Postal Service
move toward fully distributing all of its costs to product.17 Under fully distributed costing
(FDC) any of several methodologies is used to assign institutional costs to products. For
example, institutional costs could be allocated to products in proportion to revenue,
volume, attributable costs, or any other factors the analyst might care to devise. The
benefit of using FDC to set prices is that if every product were successfully sold at a
price that covers its FDC, then the Postal Service could not lose money. Those in favor
of FDC procedures claim that they provide a better assurance that prices are
compensatory, as well as a better way to assign corporate responsibility for
performance to product managers.

However, the problem with FDC is that institutional costs by definition are not caused by
any product. Therefore, any method used to allocate institutional costs to products is by
its very nature arbitrary. FDC neither reflects cost-      The choice of FDC allocation
causing activities nor the demand characteristics of       method can lead to
the product. And the choice of allocation method can       significant errors in
lead to significantly different results, including whether evaluating the financial
or not it appears that a product is making or losing       performance of a product
money. Therefore, the choice of allocation method can line.
be misleading in evaluating the financial performance
of a product line. And when used to develop prices, FDC can lead to prices that do not
reflect the right economic signals.

FDC does provide a price floor that ensures products make a significant contribution to
fixed cost; however, the procedure introduces numerous distortions into the calculus of
pricing. In that sense, the cure may be worse than the disease. A more detailed
discussion of FDC can be found in Appendix C.




16
   Private firms sometimes price below cost to introduce and grow a new product that is believed will be profitable in
the future (often referred to as penetration pricing), but it is unlikely that the PRC would allow the Postal Service to
follow this practice.
17
   In his testimony before the President’s Commission on the Postal Service on February 20, 2003, witness Mike
Eskew, Chairman and Chief Executive Officer of UPS, criticized the Postal Service for not allocating more of its costs,
saying that it was essentially subsidizing its parcel service through low cost attribution and low mark-ups. This
testimony can be found at http://govinfo.library.unt.edu/usps/offices/domestic-finance/usps/meetings.html.


                                                           4
U.S. Postal Service Office of Inspector General                                                    March 20, 2012
A Primer on Postal Costing Issues                                                                RARC-WP-12-008


How Should the System be Adapted To Reflect the Excess Capacity Currently
Present in the Postal Network (Short-Run Versus Long-Run Marginal Costs)?

The general complaint surrounding this issue is that mailers do not want to bear the
burden (through higher prices or through the appearance of a lower cost coverage) of
excess capacity (e.g. idle workers, less-than-full trucks). This issue looms large today,
as the “perfect storm” of recession and diversion has left the Postal Service with
significant excess capacity.

The economic intuition behind this complaint involves whether costs of products should
include or exclude costs that only change with volume over a longer period of time. For
example, even though it is true that facility space will eventually be adjusted to changes
in mail volume, it may be some time before an actual change occurs (e.g., a plant is
opened or closed). The marginal cost estimates found in the Cost and Revenue
Analysis (CRA)18 do include these costs that vary with volume over a longer time period
and are often referred to as long-run costs.

It times of excess capacity, CRA long-run costs will overstate the costs experienced in
the short run (the “short run” refers to a time period too short to make all the
adjustments to volume changes that would be made in the “long run”). Therefore, some
have argued that the use of long-run costs to set prices unfairly burdens products, and
the Postal Service should be using short-run marginal costs to set prices.

While it is true that in the current environment short-run costs would be lower than long-
                                     run costs, the use of long-run marginal costs was a
  The use of long-run
                                     purposeful decision to avoid the limitations of short-
  marginal costs is a
  purposeful decision to avoid       run cost estimates. What to include or not include in
  the limitations of short-run       short-run costs can be a complex subjective decision.
  cost estimates.                    For example, how should costing be handled if there
                                     were over-capacity in some plants and under-capacity
in others? In addition, short-run costs tend to fluctuate more rapidly than long-run costs.
This could lead to more fluctuations in prices and generate confusion over whether
products do or do not cover their costs. And while short-run costs would be lower in
times of excess capacity, the opposite would be true if the Postal Service realigned its
network to cut capacity and then experienced a volume surge.

A better alternative to replacing long-run costs with short-run costs would be to provide
information on both, when possible. Although there are some serious issues in properly
estimating short-run costs, the Postal Service could probably provide an approximate
estimate of short-run costs as a complement to its long-run CRA analysis. In fact, the
Postal Service has produced rudimentary estimates of short-run costs for the purpose of


18
   The CRA is produced every year and reports data by product including revenue, attributable cost, volume variable
cost, and product specific cost. The Postal Service produces both a public and nonpublic version of the CRA. The
nonpublic version contains product-specific information about the Postal Service’s competitive products. The public
version of the CRA can be found on the Postal Service’s website at http://about.usps.com/who-we-
are/financials/welcome.htm#.


                                                         5
U.S. Postal Service Office of Inspector General                                                    March 20, 2012
A Primer on Postal Costing Issues                                                                RARC-WP-12-008


evaluating summer sales.19 A more detailed discussion of short-run versus long-run
costs can be found in Appendix D.

Should the Postal Service Move Toward Developing Bottom-Up Costs?

The current system employs a top-down costing approach. The Postal Service develops
retail rates (single-piece) and then offers mailers discounts off these rates for work that
they perform, such as presorting the mail. The discounts are based on the estimated
cost avoided by the Postal Service as a result of the work the mailer performs.20

In the top-down approach, the mailer only gets credit for activities in which it would not
otherwise engage. Mailers complain that they do not get discounts for such practices as
address hygiene even though these types of practices save costs. Recently, some
mailers have advocated that costs should be developed using “bottom-up” costing, in
which the cost of each element of the mail handling process is estimated and then the
individual element costs are summed up to determine the product cost. It is their belief
that the use of bottom-up costing will result in lower costs, and therefore lower prices,
for workshare mail. In fact, moving from a top-down to a bottom-up approach to pricing
would result in “winners,” those that would benefit
through lower estimated costs (and prices), but it        While there would be
would also result in “losers,” those who would be         numerous benefits to having
                                                          more disaggregated cost
worse off through higher estimated costs (and
                                                          information, it is both difficult
prices, assuming the same average price for the           and costly to develop marginal
overall rate category).                                   costs for each activity.
Bottom-up costing has merit, as there would be
many benefits to having more disaggregated cost information. However, it is both
difficult and costly to develop marginal cost estimates for each activity (e.g., culling
letters of a certain address quality). There is nothing fundamentally impossible about
estimating bottom-up costs but estimating the marginal cost of every activity with the
same degree of rigor currently required by the PRC for major products would present a
significant resource challenge, at a time when resources are especially scarce. A more
detailed discussion on bottom-up costing can be found in Appendix E.




19
   The Postal Service had two summer sales, special incentives for customers to send mail during the summer, when
mail volumes are typically low. Unlike most discounts, summer sale incentives were only in effect for a few months.
20
   More information can be found in the U.S. Postal Service Office of Inspector General Report Assessment of
Worksharing, Report No. RARC-WP-10-005, July 12, 2010, http://www.uspsoig.gov/foia_files/RARC-WP-10-005.pdf.


                                                         6
U.S. Postal Service Office of Inspector General                              March 20, 2012
A Primer on Postal Costing Issues                                          RARC-WP-12-008


How Should the New Postal Data Sources (Such as IMb) Be Used in the Costing
System To Improve Accuracy and Reduce Costs?

New data systems, designed for operations or                 It is questionable if any of
marketing purposes, such as the intelligent mail             the new data systems are
barcode (IMb), Point of Sale (POS), and advanced             sufficiently mature and
facer/canceller image lift, are coming online all the        comprehensive to use in
time. The Postal Service should be taking full               support of the cost systems
advantage of these new systems and using them to             in any material way.
develop costs as they become available for use, in
order to both reduce the expense of collecting cost data and to increase the accuracy of
its cost system. The Postal Service is and should continue to study the feasibility of
using new data systems to improve its cost systems. However, at this point in time, it is
questionable if any of the new data systems are sufficiently mature and comprehensive
to use in support of the cost systems in any material way (discussed in more detail in
Appendix F). But this could change in the future, as the new data systems, and the
technology that supports these systems, mature. Part of the maturity may even be as
simple as adjustments made to better conform to the cost system’s needs, such as
investing in sufficient memory to collect and maintain a higher level of detail than is
currently collected. Clearly, an important driver of decisions regarding the development
of operational data systems should be the usefulness of such data in constructing a cost
system that is meaningful and useful as a management tool.

What Can Be Done To Improve the Timeliness of Cost Studies?

While some data are collected every year, other data rely
on studies that are updated on a periodic basis. Everyone      Some of the data that
agrees that some of the data that support the cost             supports the cost system
                                                               is seriously out of date.
systems is seriously out of date. In some areas, this
causes little harm since there has been little change in the underlying cost-generating
activity since the last study update. However, in some areas, operations have changed
in ways that make the old studies inapplicable.

                                Although part of the problem is due to resource
  To increase                   constraints and/or neglect by management, another part
  transparency, the PRC
                                is a side effect of the new regulations that were put in
  ruled that the Postal
  Service could not make        place to increase the transparency of changes to the cost
  any change to its costing     systems. The PRC ruled that the Postal Service could not
  system without first          make any change to its costing system without first
  getting its permission.       getting permission from the PRC. This rule has alleviated
                                stakeholders’ concerns about transparency of changes to
the cost methodology, but it may have had the unintended effect of placing additional
roadblocks in the way of timely updates to cost studies. Although the Postal Service has
successfully gotten approval for small changes, the approval (or disapproval) for these
changes has at times occurred after the time the Postal Service needed to incorporate
the change into its Annual Compliance Report. Undoubtedly, the combination of new
responsibilities and requests for service changes has strained the resources at the PRC


                                                  7
U.S. Postal Service Office of Inspector General                                                      March 20, 2012
A Primer on Postal Costing Issues                                                                  RARC-WP-12-008


and the Postal Service.21 The PRC has recently issued decisions that should move the
process forward, and the Postal Service has begun planning for larger studies, such as
updates to its variability studies.

An important issue that needs to be addressed is identifying what can be done to
maintain transparency while facilitating more current cost analysis. Even more
fundamentally, how can cost estimates keep up with the rapidly changing operational
and market realities now envisioned for the future?


Cost Data Needs in the Future
Since the current cost system was developed to support a regulatory environment that
no longer exists — specifically, rate cases under a break-even requirement — it may
not provide all the cost information the Postal Service needs in the future to support
managing the business. While the Postal Service is undergoing significant financial
constraints that may limit its ability to make large investments, it should develop an
implementation plan for a cost system that meets its future needs. Initially, new cost
data may serve not as a substitute for the existing cost system as much as a
supplement to the cost data that already exists. Ultimately, however, it may be possible
to replace the current system with one based on operational data. This would be optimal
if new procedures provide useful and accurate cost estimates at a reasonable cost.

The incorporation of new costing data should not be
                                                                The Postal Service
made on an ad hoc basis. Rather, the Postal Service             should develop a vision
should develop a vision for the type of cost information        for the type of cost
that will provide the most useful guide to management           information that will
actions in the future. Without a vision, the Postal Service     provide the most useful
may make decisions that will ultimately restrict its ability to guide to management
develop the cost data it needs in the future. For example,      actions in the future.
many of the data systems at the Postal Service were
developed with the purpose of supporting operations and are not easily used to provide
cost data. With more foresight, it may be possible to create systems, or to modify
existing systems, that would serve both purposes.

There are at least three likely characteristics of future postal markets that will challenge
the existing cost system and provide a space in which a modified/improved system can
significantly inform management decisions:

     1. Continued electronic substitution. Postal life in the digital world will feature
        shrinking demand for physical mail, as well as growing efforts to integrate
        physical and digital product offerings.


21
   Under PAEA, the PRC was responsible for developing the new regulatory process for approving market dominant
and competitive product prices. The PRC is also now responsible for regulating international mail, which involves a
significantly large number of contracts. In addition, the request in service changes has become a significant workload
for the PRC. The PRC currently receives, on average, an appeal a day on Post Office™ closings alone.


                                                          8
U.S. Postal Service Office of Inspector General                                                  March 20, 2012
A Primer on Postal Costing Issues                                                              RARC-WP-12-008


     2. Some form of incentive regulation. Even if the structure of the price cap
        established by the PAEA is altered, it seems likely that price increases will
        continue to be constrained under mechanisms designed to enhance innovation
        and improvements in efficiency.

     3. Special contract pricing. Negotiated Service Agreements (NSAs) have been an
        important aspect of postal product development under PAEA and are likely to
        remain so.

Cost Data Needs Will Change with Decline in Physical Mail and Increase in Digital
Mail

Even if electronic substitution slows somewhat in the future, it is likely that the Postal
Service network is fated to shrink. This has implications for costing. Not only does
declining volume turn the benefits of economies of scale, upon which the postal network
was largely built, into disproportionately rising costs, but the cost/volume relation itself,
so central to cost estimation, is unstable between rising and falling volumes.

Specifically, it is more difficult to take costs out of the system when volume falls than to
employ added resources when it grows.22 Hence, volume variability estimates would at
the very least need to be re-estimated under conditions of falling volumes.

Secondly, the Postal Service has enjoyed growing volumes for many years and gained
much experience in analyzing the cost properties of this growth. Analyzing the costs of
a shrinking network is a relatively new effort, which will require some painful “learning by
(un)doing” to gain full command of the methods and analysis needed.

Apart from the question of the size of the network in the digital future, there is a
cornucopia of digital products the Postal Service might choose to offer. These digital
products have different cost characteristics than physical mail. The Postal Service
already has struggled with the appropriate way to cost more electronic services such as
Confirm services, which allow senders to receive tracking information about their mail.
The Postal Service OIG has suggested that the Postal Service consider developing
other digital products such as a prepaid card,23 an e-mail service (eMailbox)24, and a
digital storage service (eLockbox).25

Digital products present special problems in cost-benefit analysis relative to traditional
postal products. For example, digital products often require technologies that are less
well-known than traditional products, often involve joint production or shared

22
   Michael J. Bradley, Jeff Colvin and Mary K. Perkins, “Do Volume Increases and Decreases Have the Same Effect
on Labor Hours?” Multi-Model Competition and the Future of the Mail (2012).
23
   U.S. Postal Service Office of Inspector General Report, Risk Analysis Research Center, Digital Currency:
Opportunities for the Postal Service, Report No. RARC-WP-12-001, October 3, 2011,
http://www.uspsoig.gov/foia_files/RARC-WP-12-001.pdf.
24
   U.S. Postal Service Office of Inspector General Report, Risk Analysis Research Center, eMailbox and eLockbox:
Opportunities for the Postal Service, Report No. RARC-WP-12-003, November 14, 2011,
http://www.uspsoig.gov/foia_files/RARC-WP-12-003.pdf.
25
   Ibid


                                                        9
U.S. Postal Service Office of Inspector General                                                       March 20, 2012
A Primer on Postal Costing Issues                                                                   RARC-WP-12-008


infrastructure, sometimes share research and development efforts (and expenses) with
each other and with traditional products, may involve high start-up costs, and may be
rolled out in market-driven sequences that complicate the cost attribution problem.26

These problems doubtless have solutions, but future cost systems will need to provide
information on topics not currently considered in the postal costing world. What, for
instance, is the cost of adding an electronic application to a server previously dedicated
to another product? Are there any variable costs associated with digital products or are
they all fixed? If fixed, how are the costs of servers that must ultimately be added (as
digital product offerings are expanded over time) attributed to existing digital products?
If several digital products share the same infrastructure, does the first product rolled out
bear the entire infrastructure cost? While there may be opportunities to learn from how
other entities address these costing issues, these questions and others will need to be
studied in the context of postal costing, as the methodology could have a significant
impact on what products are considered profitable, and as a result, which products are
introduced in the market.

Incentive Regulation Drives the Need for Activity-Based Costing

Under incentive regulation, there is a shift of attention away from focusing on product
cost toward focusing on the total cost of all activities.27 Although product costs continue
to be of importance in analyzing whether products cover their costs, the fundamental
datum for pricing is the price in the previous period. The drive to efficiency, however,
requires a detailed look at activities to determine what steps in the production chain
have the greatest cost impact. Some have argued that the Postal Service should move
towards estimating “should be” costs, that is, the costs that the Postal Service should
incur if the mail were handled in the most efficient manner. “Should be” costs could be
used in combination with actual costs, to determine where the greatest inefficiencies
exist in the mail flow.

The development of activity-based costs is hindered by the lack of standardization of
mail processing across facilities. Nevertheless, an important limitation upon developing
detailed activity costs is the availability of data, and increasing that availability would
require significant resources. The Postal Service may want to consider the importance
of being able to manage its costs on an activity-based level. If deemed important, the
Postal Service could create a long-term plan to move toward developing activity-based
costs, including increasing its use of more standardized processing, and revising its
operating data systems so that they can provide more detailed cost information.



26
   For example, there could be a “first mover disadvantage,” where the first product introduced bore the entire cost of
the infrastructure. If this methodology were used, there would be a very large disincentive for products to be offered
quickly, as product managers would want to avoid introducing the first product to the market. Similarly, such a method
might incentivize the simultaneous introduction of products that might better be introduced sequentially.
27
   The PRA established a “cost of service” regulation that enshrined a break-even goal in the price-setting process.
With the PAEA, the break-even requirement was replaced by “incentive regulation” that includes a price cap for
market dominant products where price increases cannot exceed the Consumer Price Index. 39 U.S.C. § 3622(d).


                                                          10
U.S. Postal Service Office of Inspector General                               March 20, 2012
A Primer on Postal Costing Issues                                           RARC-WP-12-008


Cost Data Needs To Support Negotiated Service Agreements

A new pricing flexibility tool developed in recent years is the negotiated service
agreement (NSA). Similar to worksharing, an NSA typically offers a lower price to those
customers who can avoid certain costly activities or increase their volume of mail. In
contrast to a workshare discount, which is offered to all customers who can avoid the
activity for a specific rate category, NSAs are designed with a specific customer in mind
(though for market dominant products, “similarly situated” customers must be offered
the same type of NSA). NSAs have increased the desire for more detailed and
disaggregated data.

The list of attributes that ideally would be costed under NSAs is greater than those
under workshare; furthermore, these types of attributes are different. Data for workshare
include cost information related to depth of presort, entry point, and how mail is
prepared. Data to support NSAs would include these as well as speed, reliability,
specific customer or customer type, geographic region (origin or destination), and
information about the specific cost characteristics of the customer’s mailpiece (shape,
weight, addressing standards). Were such attribute cost information available, it would
make the design, implementation, and review of NSAs easier. This approach would
address a critical need as NSAs grow in significance.


Conclusion
There has been much criticism of the Postal Service cost system. Some of the criticisms
have merit, though they may also require significant resource commitment.
Improvements to the cost methodology have the potential to increase the accuracy of
costs, as well as the efficiency with which cost data are gathered. It is worth noting that
cost system changes would not directly reduce total costs, though they could bring
about a change in the percent of costs attributed to individual products. Also, given the
mechanism of the cap, changes in cost allocation by product do not directly translate
into prices. Nevertheless, a change in cost methodology will most likely result in
“winners” and “losers,” and it’s not generally possible to know in advance which will be
which. However, regardless of how costs are attributed to product, the Postal Service
still needs to earn revenues that cover its total operating costs. So even if attributable
costs overall decline, prices overall will not go down. A decline in the measurement of
attributable costs will simply result in an increase in the measurement of institutional
cost, and prices will still ultimately need to be set so that revenues sufficiently cover
total operating costs.

The Postal Service should carefully study and consider potential improvements to its
cost system. As described above, the drive for efficiency gains and for more finely
disaggregated product development requires an enhanced cost system. Moreover, the
current system was developed to support a regulatory environment in which the Postal
Service was required to break even and physical mail volume had the potential to
increase on an annual basis. Both the regulatory and market conditions have changed.
The Postal Service is now under a price cap for the majority of its revenue, and physical


                                                  11
U.S. Postal Service Office of Inspector General                                 March 20, 2012
A Primer on Postal Costing Issues                                             RARC-WP-12-008


mail volume is declining in favor of digital alternatives. In addition, the Postal Service is
increasingly relying on contracts with individual mailers for greater amounts of its
physical volume. As the Postal Service continues to focus on cutting costs, creating
specific rates for customers, and evolving to a more digital environment, it will need
improved cost data. In order to meet this need, the Postal Service should develop a
plan which integrates the development of operations data systems and the estimation of
product costs. Ways should be sought, in such a plan to fully utilize operations data,
making revisions to the way cost data are developed where necessary, with a goal of
producing the most useful and accurate cost estimates at a reasonable cost. Naturally,
the plan should be cognizant of the need to maintain the successful features of the
current system.




                                                  12
U.S. Postal Service Office of Inspector General            March 20, 2012
A Primer on Postal Costing Issues                        RARC-WP-12-008




                                            Appendices




                                                  13
U.S. Postal Service Office of Inspector General                                       March 20, 2012
A Primer on Postal Costing Issues                                                   RARC-WP-12-008



Appendix A             Marginal Costs

As discussed in the main body of this paper, the most important statistic produced by
the cost system is the marginal cost of each postal product. This appendix explains this
concept in more detail and describes how the estimate is conducted by the Postal
Service. For a simple example of marginal cost, Table 1 displays the daily cost of
delivering one, two, and greater than two letters. Assume that the cost of delivering one
letter is high, $100, as the carrier has to drive around all the addresses, even though
he/she only delivers a single letter to each address. Things improve slightly when the
daily volume rises to two letters, because the fixed cost of covering the entire route can
be spread over both letter costs. Since some of the costs are fixed and do not increase
with the number of letters, the cost of delivering two letters is not $200, it is $188. So the
marginal cost of the “last letter” is just $88 ($188 - $100). This is still very expensive, but
the marginal cost continues to decline as the number of letters increases. With three
letters, the marginal cost is $80, with four letters it is $74, and with 400 letters the
marginal cost falls to only 5 cents.

                                     Table 1: Marginal Cost Example
              Letters Delivered          Total Cost                 Marginal Cost
                       1                   $100
                       2                     $188                       $88
                       3                     $268                       $80
                       4                     $342                       $74
                       5                     $412                       $70
                       6                     $479                       $67
                       7                     $544                       $65
                       …                      …                          ….
                      400                    $700                       $.05
            Source: Adapted from U.S. Postal Service presentation

When the Postal Service measures marginal cost, it does not actually look at the
change in cost of one additional (or one fewer) letter. Mail volume varies by the day, so
the marginal cost estimated by the Postal Service is actually the cost associated with
larger increments of volume changes. However, the fact that the Postal Service
estimates the cost associated with larger increments of volume should not be
interpreted to mean that the marginal cost of one letter is actually zero.

In the postal industry, as in other network industries, marginal cost falls as volume
increases (either of the same product or many different products). This is due to
economies of scope, density, and scale. Economies of scale refer to the efficiencies
enjoyed from producing more of the same product, or in other words, unit cost declines
as volume increases. Economies of scope refer to the efficiencies that occur as a result
of producing multiple products. And economies of density are present when the unit
cost is reduced due to a greater volume per delivery point.


                                                      14
U.S. Postal Service Office of Inspector General                                                  March 20, 2012
A Primer on Postal Costing Issues                                                              RARC-WP-12-008

               Figure 1: Marginal Cost for Postal Products Falls as Volume Increases



                     Marginal cost is declining for postal products
                    due to economies of scope, density, and scale.
                Marginal
                Cost                                                      Marginal cost is
                                                                             the cost
                                                                          measurement
                                                                           required for
                                                                             pricing.
                   MC1
                   MC2
                                                                         In a multiproduct
                                                                           firm, average
                                                                         cost is not useful

                                            V1    V2
                                                             Volume



Source: Adapted from U.S. Postal Service presentation


The Postal Service estimates the marginal cost of its main products each fiscal year,
and publishes them in the Cost and Revenue Analysis (CRA). In 2010, there were over
30 major products whose costs were analyzed in many activities. Activities are selected
at the most disaggregated level that will support reliable economic analysis to identify
volume variable costs. For example, within city carriers, there would be cost information
for the activity of casing mail in the office, but not reliable information on the cost of
sorting a specific customer’s mail on a specific day.28

The Postal Service measures the marginal cost of its major products in five steps:

     Step 1:     Find the total costs of each activity.

     Step 2:     Discover how the total costs of each activity vary with volume (a crucial
                 step in discovering marginal cost) — volume variable cost.

     Step 3:     Distribute the volume variable costs to products.

     Step 4:     Within each activity, divide the volume variable cost of each product by its
                 originating volume.29

     Step 5:     Add up the cost of each activity to get the marginal cost of the product.
28
   The reader interested in the details may see U.S. Postal Service, Summary Description of USPS Development of
Costs by Segments and Components, Fiscal Year 2010.
29
   Sometimes referred to as RPW volume, after the Revenue, Pieces and Weight (RPW) report in which they are
reported.


                                                        15
U.S. Postal Service Office of Inspector General                                              March 20, 2012
A Primer on Postal Costing Issues                                                          RARC-WP-12-008


Step 1: Find the total costs of each cost activity

The total cost of an activity is taken directly from the general ledger. Examples are the
cost of purchased transportation and the cost of city carriers (salaries and benefits).30

                             Figure 2: Find Total Cost of Each Cost Activity




                              GL




                                                  Local Highway

                                                  Long Distance Highway

                                                  Commercial Air

                                                  FDX Air

                                                  Rail




Source: Adapted from U.S. Postal Service presentation




Step 2: Discover how the total costs of each activity varies with volume —
        volume variable cost

In this step, special studies are conducted to determine how the cost of an activity
changes as volume increases or decreases. For instance, the cost of city carrier street
delivery, while sensitive to changes in volume, does not vary in proportion to it. The
variability of the city carrier street activity is about 38 percent (if volume increases 100
percent, city carrier street delivery costs increase 38 percent). Multiplying the total cost
of city carrier labor, $10.5 billion (from Step 1) by this 38 percent variability, yields an
annual volume variable cost of about $4 billion. Please note that “volume variable cost”
is just a postal term for the mathematical product of the marginal cost of a postal
product and its volume.




30
  For more information on segments and components see U.S. Postal Service, Summary Description of USPS
Development of Costs by Segments and Components, Fiscal Year 2010.


                                                            16
U.S. Postal Service Office of Inspector General                                                             March 20, 2012
A Primer on Postal Costing Issues                                                                         RARC-WP-12-008

                                Figure 3: Measure Volume Variable Costs


                                   How quickly do costs change with
                                        changes in volume?


                                        0%                 50%                100%

                                                  “The Variability”

                                     Volume
                                     Variable    = Cost of Activity  *  “The Variability”
                                     Cost



Source: Adapted from U.S. Postal Service presentation


Step 3: Distribute volume variable costs to products

Thus far, volume variable costs of all products are known in a given activity — city
carrier delivery, in our example — but to find out the marginal cost of a specific product
in an activity requires another step. In Step 3, the volume variable costs are divided up,
or distributed, among the products that are handled in the activity. In the example of city
carrier delivery, that consists of all the products delivered on city routes. Volume
variable costs are distributed by means of “distribution keys” produced by any of several
Postal Service sampling systems. The distribution key is based on characteristics of the
mail that reflect the cost drivers of the variable costs, such as time spent handling the
mailpiece or space taken up on a truck.

                         Figure 4: Distribute Volume Variable Costs to Product


                                                                     Letter Cost Pool


                                                                Standard
                                                                Nonprofit                First-Class
                                                                  13%                   Single Piece
                                                                                             26%

                                                     Standard
                             Volume                    High
                          Variable Cost               Density
                                For                    20%
                           City Carrier
                          Letter Delivery

                                                                                            First-Class
                                                          Standard                            Presort
                                                          Regular                               31%
                                                            10%




                                                                                                      5


Source: Adapted from U.S. Postal Service presentation



                                                           17
U.S. Postal Service Office of Inspector General                                                        March 20, 2012
A Primer on Postal Costing Issues                                                                    RARC-WP-12-008


The main sampling systems are:

        the In-Office Cost System (IOCS) used for mail processing, supervision, and in-
         office city carrier costs (650,000 tests/year);

        the City Carrier Cost System (CCS) used for city carrier costs (9,400 tests/year);

        the Rural Carrier Cost System (RCCS) used for rural carrier costs (6,400
         tests/year); and

        the Transportation Cost System (TRACS) used for transportation costs (18,000
         tests/year).

Each of the systems samples postal activities and provides a key to distribute the
relevant volume variable cost to product.

Step 4: Divide the volume variable cost of each product by its volume to produce
        unit volume variable cost (UVVC) by product and activity

Step 4 unitizes the activity cost of each product. There is a somewhat subtle point here:
the city carrier volume variable cost for a First-Class Single-Piece (FCSP) letter is not
simply the cost of delivery of a letter. That is because the unit variable cost is calculated
as the total volume variable cost attributed to FCSP letters divided by the RPW volume
of FCSP letters and not all FCSP letters are delivered (some are picked up at Post
Office boxes or at Post Offices). This means that the delivery cost per all FCSP letters
depends upon what proportion of FCSP letters get delivered. If only half of them are
delivered, then the delivery cost per originating letter is just 50 percent of the actual
marginal cost of delivery. In other words, the marginal cost of a product is a weighted
average of its cost in each activity, where the weights are the product volumes.



Step 5:      Add up the cost of each activity to the get the marginal cost of each
             product

The intuition behind this calculation is as follows. From Step 2, the variability step, it is
known how the activity cost changes as volume changes. It is assumed that this general
behavior applies to each product within the activity in the same way. For example, if it
known that as the volume of letters doubles, the street delivery cost of letters rises by
30 percent, then it is assumed that the cost of First-Class Mail® (FCM) letters and
Standard Mail® letters behaves in the same manner. Of course, the validity of the
assumption depends upon getting the definition of the activity right, and restricting the
application of the variability estimate to that activity. In other words, delivering a FCM
letter on the street is not substantially different from delivering a Standard Mail letter.31

31
  The same might not be true for in-office handling of letters, for example, if Standard Mail letters can be delayed and
FCM letters cannot.


                                                          18
U.S. Postal Service Office of Inspector General                                                   March 20, 2012
A Primer on Postal Costing Issues                                                               RARC-WP-12-008


For a more rigorous and academic explanation of why this procedure provides a good
estimate of marginal cost, see Bradley, Colvin, and Panzar (1999).32

                     Figure 5: Estimate the Volume Variable Cost of Each Segment


                               In the CRA Volume Variable Cost is Calculated
                                  Within Each Segment and then Summed.


                                    City             Rural               Air
                                   Carriers:        Carriers:         Transport:
                                    $0.08            $0.03              $0.04



                                     Mail            Ground            Window
                                 Processing:        Transport:         Service:
                                    $0.06             $0.05             $0.03




Source: Adapted from U.S. Postal Service presentation


As mentioned in the introduction, the CRA has traditionally estimated long-run marginal
costs. In other words, certain cost elements are included as part of the marginal cost of
a product that might, in fact, be fixed when viewed from a short-run perspective. To
adjust the costs for long-run changes in capacity, the Postal Service applies factors that
add these costs as a proportion of labor costs. It is these adjusted (long-run) costs that
are shown in the CRA.

Since marginal cost falls as volume increases, the sum of volume variable costs will be
less than the total cost incurred by the Postal Service in providing all of its products. In
other words, since volume variability is used to attribute costs, only a fraction of total
costs are attributed. The portion of costs that are not attributed is referred to as
“institutional cost.” In 2010, 55 percent of costs were attributed; 45 percent were
institutional.




32
  Michael D. Bradley, Jeff Colvin, and John Panzar, “On Setting Prices and Testing Cross-Subsidy with Accounting
Data,” Journal of Regulatory Economics, Vol. 16 (1999), pp. 83-100.


                                                        19
U.S. Postal Service Office of Inspector General                                                                        March 20, 2012
A Primer on Postal Costing Issues                                                                                    RARC-WP-12-008

                               Figure 6: Attributable and Institutional Costs




                                 FY 2010                       55%                        45%
                             Total Expense
                                  $75.6B



                                                          Attributable $41.6         Institutional $34.0 B


                            Attributable Costs Include:         Institutional “Fixed” Costs include:
                             Mail Processing                    Delivery Infrastructure: 232,000 Routes, 151
                             Delivery Carriers:                   million Delivery Points
                                    Office Time                  Administrative & Field Support
                                    Mail Box Time                Retail Infrastructure: 36,222 Post Offices
                             Transportation
                             Retail Transactions                                                                2




Source: Adapted from U.S. Postal Service presentation


Note that only a relatively small portion of institutional costs are “fixed” costs in the
economist’s sense of that term, that is, a cost that is incurred even if output in the period
is equal to zero. Advertising costs might fit that definition, as might other truly “fixed”
costs such as the flagpole in front of the headquarters building at L’Enfant Plaza, but
most postal costs do increase as volume rises. It is simply that they do not rise in
proportion to the volume increase because of scale economies. As might be expected,
most institutional costs have their origin in the delivery infrastructure.

It will also be useful below to note that institutional cost is composed of two parts: fixed
costs and “‘infra-marginal costs.” Recall how costs are incurred in delivery: it costs
much less to provide the “last” letter than what it would cost if only one letter were
delivered. Therefore, the total cost of providing all letters includes not only the volume
variable cost but the cost of all those letters delivered at a higher cost. Economists have
given these costs the ungainly name “infra-marginal.”

Because volume variable cost measures the cost incurred if all letters cost the same as
the marginal letter, it does not capture all of the variable cost of delivering those letters.
The difference between the total variable cost of delivering those letters and the volume
variable cost of delivering those letters is the infra-marginal cost.




                                                                  20
U.S. Postal Service Office of Inspector General                                                          March 20, 2012
A Primer on Postal Costing Issues                                                                      RARC-WP-12-008

                                Figure 7: Components of Institutional Cost




                            Marginal              Infra-Marginal Costs
                            Cost


                                                                                  Institutional Cost
                                                                                    is the sum of:

                                                                                  1. Infra-marginal
                              MC
                                                                                     (network) cost
                                       Volume Variable
                                            Cost                                  2. Fixed cost

                                                            V
                                                                         Volume




Source: Adapted from U.S. Postal Service presentation




                                                                 21
U.S. Postal Service Office of Inspector General                                                    March 20, 2012
A Primer on Postal Costing Issues                                                                RARC-WP-12-008



Appendix B             Incremental Costs

There is a second very important question that the Postal Service cost system was
designed to answer: What is the total cost caused by the product — in other words,
what costs would not exist if the product did not exist? The tool used for this purpose is
called incremental cost. It is useful for determining whether the price of a product is
compensatory, i.e., whether one can be sure that the product covers its “cost” and is not
subsidized by the customers of some other product or products. The tool is also useful
to help decide if a line of business should be pursued at all. For internal business
purposes, it is important to note that while a price above marginal cost is a necessary
condition for net revenue generation, it is not sufficient. Suppose the post delivered five
letters with a marginal cost of $70 per letter, at the price at $75 per letter (shown in
Figure 8). Even though the price exceeds marginal cost, the result would be a $37 loss.

           Figure 8: Price above Marginal Cost is No Guarantee that Price Exceeds Cost


                                    How can we tell if a product is
                                        covering its costs?
                                                                 Return to our letter example:
                           A price above marginal cost is
                           required but no guarantee.             Letters    Total    Marginal
                                                                 Delivered   Cost      Cost

                           If the price were $75 and we             1        $100
                           delivered 5 letters                      2        $188       $88
                                                                    3        $268       $80
                             Total Revenue = $375                   4        $342       $74
                             Total Cost    = $412
                                                                    5        $412       $70
                                                                    6        $479       $67
                             Net            = - $ 37
                                                                    7        $544       $65
                                                                    8        $609       $65


                         To ensure a product covers its cost, a product’s revenue >
                                           its incremental cost


Source: Adapted from U.S. Postal Service presentation


For a product to make money, revenue must exceed the total cost of providing a
product at its current output level, i.e., its incremental cost. In our example, the post has
to earn enough revenue to cover not only the cost calculated at the margin (the volume
variable cost), but the entire cost of the delivery of all the letters, including the
“infra-marginal” cost of those letters. Recall that volume variable cost assumes that
each letter can be delivered as cheaply as the last one and does not include the total
variable cost of letter delivery. To see if a product is truly covering its cost, the product’s
total cost, including infra-marginal, must be considered.

Finally, incremental cost includes not only that portion of institutional cost called infra-
marginal, but also certain costs that are fixed, yet specific to a particular product.


                                                            22
U.S. Postal Service Office of Inspector General                                                      March 20, 2012
A Primer on Postal Costing Issues                                                                  RARC-WP-12-008

                                             Figure 9: Incremental Cost


                                   Incremental cost is the total cost
                                  caused by provision of a product.
                                              Incremental Cost has two parts:

                            Marginal
                            Cost
                                             Infra-marginal costs



                                                                     +
                                        Volume
                                        Variable
                                         Cost

                                                   V*     Volume
                                  Sum of the marginal costs of           Product-specific
                                   actual production including             fixed costs
                                      infra-marginal costs


Source: Adapted from U.S. Postal Service presentation


For most postal products, product-specific fixed cost is a very tiny portion of cost. In
fiscal year (FY) 2010, product-specific fixed cost was about 3 percent of total cost.
However, in some new products, especially digital products, product-specific fixed
costs, such as software development costs, can be very significant.

Though the Postal Service developed a methodology for estimating infra-marginal costs
in the 1990s, the PRC has never accepted that methodology.33 Hence, since PAEA was
enacted, the PRC has relied upon “attributable cost” (the sum of volume variable cost
and product specific cost) as an estimate of incremental cost.34 The PRC uses
attributable cost to determine if each competitive product is meeting the requirement to
earn revenues in excess of its cost. It should be noted that for some of the most
relevant competitive products, such as Express Mail, the difference between
incremental and attributable cost is small.

In sum, the Postal Service produces an annual estimate of the product revenues and
costs. Table 2 shows a sample of the data from the public FY 2010 CRA. The CRA
report shows revenue, volume variable cost, product-specific cost, and attributable cost
(used by the PRC to test for cross-subsidy) by product.




33
   Part of the problem has to do with quantifying the incremental cost of really high volume categories. To calculate
the incremental cost of a product, one asks: How much would be saved if it were not offered or if it were
discontinued? However, trying to imagine how the postal system would be configured without FCM (or Standard Mail
for that matter) is challenging and leaves a lot of room for error.
34
   PRC calculation is attributable cost = volume variable cost + product-specific fixed cost. The Postal Service
calculation of incremental cost is incremental cost = volume variable cost + infra-marginal cost + product-specific
fixed cost.


                                                                    23
U.S. Postal Service Office of Inspector General                                       March 20, 2012
A Primer on Postal Costing Issues                                                   RARC-WP-12-008

                  Table 2: Public Cost and Revenue Analysis FY 2010 (in millions)
                                             Volume              Product-      Attributable
                            Revenue
                                           Variable Cost       Specific Cost       Cost
   First-Class Mail         $34,026               $17,045                $31     $17,076
   Standard Mail            $17,330               $11,806                $12     $11,818
   Periodicals               $1,879                $2,489                 $0      $2,490
   Package Services          $1,516                $1,698                 $0      $1,698
  Source: U.S. Postal Service FY 2010 Cost and Revenue Analysis Report




                                                       24
U.S. Postal Service Office of Inspector General                                                  March 20, 2012
A Primer on Postal Costing Issues                                                              RARC-WP-12-008



Appendix C             Fully Distributed Cost

Currently, the Postal Service only allocates around 55 percent of its costs to products
(these costs are often referred to as volume variable costs) and the remaining costs are
assumed to be institutional or not caused by any one product. For years, some have
argued that it would make more sense to use fully distributed costing (FDC), i.e., use
some sort of methodology to allocate institutional costs to products. Otherwise, or so the
argument goes, a huge portion of costs is left unassigned and unanalyzed. Adherents of
FDC argue that FDC provides a better way to evaluate the contribution of products, a
better way to be sure that rates are compensatory (involve no cross subsidy), a better
way to assign corporate responsibility for performance to product managers, and a
buffer in case projected product cost and revenue are inaccurate.

Opponents of using FDC argue that using FDC is
                                                              The problem with FDC is
contrary to using economic costs for product pricing          that institutional costs by
and development. The problem with FDC is that                 their very definition are not
institutional costs by their very definition are not          caused by any product and
caused by any product. Therefore, the allocation              therefore, any allocation
method (allocating based on volume, revenue, costs,           method is arbitrary and
or any other factor) is arbitrary and not based on cost       could be misleading.
causation. In fact, it is easy to show that the choice of
  The choice of allocation           the allocation method can have significant impact on
  method can have a                  the evaluation of a product’s financial performance.
  significant impact on the
  evaluation of a product’s      Suppose that a post had three products: letters,
  financial performance.         parcels and expedited parcels. The volume, cost,
                                 revenue, and contribution information for the three
products are shown in Table 3 below.35

                                    Table 3: Three-Product Firm Example
                                          Attributable                                            Contribution
                          Volume                                 Rate            Revenue
                                              Cost                                                (Rev – Cost)
 Letters                    7,000            $1,400              $0.60            $4,200             $2,800
 Parcels                    2,000            $1,600              $1.25            $2,500              $900
 Expedited                  1,000            $3,500              $4.00             $4,000             $500
                                                                                                            *
 All Products              10,000            $6,500                               $10,700            $4,200
Source: Michael Bradley’s testimony before the 2003 President’s Commission on the United States Postal
           Service.
* In this case, contribution ($4,200) is equal to institutional cost ($3,500) plus profit ($700).




35
   This example is drawn from Michael Bradley’s testimony before the Presidential Commission on the United States
Postal Service on May 28, 2003, entitled “The Postal Service Product Costing System,”
http://govinfo.library.unt.edu/usps/offices/domestic-finance/usps/pdf/Bradley.pdf.


                                                       25
U.S. Postal Service Office of Inspector General                                          March 20, 2012
A Primer on Postal Costing Issues                                                      RARC-WP-12-008


Suppose the post faces a total cost of $10,000, so that it makes a profit of $700
(revenue of $10,700 – total cost of $10,000). Its institutional costs are $3,500 (total
costs of $10,000 minus attributable costs of $6,500). This means that 65 percent of the
costs are attributable to products and 35 percent of costs are institutional. It is important
to note that all products earn more revenue than their attributable costs; all the products
contribute to covering institutional costs. How would various FDC allocation schemes
work with this example?

In the first case, as shown in Table 4, the $3,500 institutional costs are allocated evenly
across all three products.

                Table 4: Three-Product Firm Example, Institutional Cost Allocated Evenly
                       Attributable      Institutional                                  Contribution
                                                            Total Cost       Revenue
                           Cost              Cost                                       (Rev – Cost)
 Letters                  $1,400            $1,167             $2,567         $4,200       $1,633
 Parcels                  $1,600            $1,167             $2,767         $2,500        -$267
 Expedited                $3,500            $1,167             $4,667         $4,000        -$667
 All Products             $6,500            $3,500            $10,000        $10,700         $700
Source: Michael Bradley’s testimony before the 2003 President’s Commission

This allocation method provides the same total profit as before, but the relative
contribution signals are much different. It appears as if the post is losing money on its
relatively low volume products, parcels, and expedited letters. The implication of this
FDC allocation is that the post should exit those business lines. If it did, however, the
cost of providing regular letters would increase dramatically because it would be the
only product left to contribute to paying for institutional costs.

This is just one of many ways to allocate institutional cost to products. Two other
examples are provided below in Tables 5 and 6. In Table 5, institutional costs are
allocated on the basis of volume and in Table 6 institutional costs are allocated on the
basis of relative attributable cost.




                                                      26
U.S. Postal Service Office of Inspector General                                                           March 20, 2012
A Primer on Postal Costing Issues                                                                       RARC-WP-12-008




             Table 5: Three-Product Firm Example, Institutional Cost Allocated Based on Volume
                             Attributable        Institutional                                             Contribution
                                                                      Total Cost          Revenue
                                 Cost                Cost                                                  (Rev – Cost)
      Letters                   $1,400              $2,450               $3,850             $4,200              $350
      Parcels                   $1,600                 $700              $2,300             $2,500              $200
      Expedited                 $3,500                 $350              $3,850             $4,000              $150
      All Products              $6,500              $3,500              $10,000            $10,700              $700
      Source: Michael Bradley’s testimony before the 2003 President’s Commission


       Table 6: Three-Product Firm Example, Institutional Cost Allocated Based on Attributable Costs
                              Attributable       Institutional                                             Contribution
                                                                      Total Cost          Revenue
                                  Cost               Cost                                                  (Rev – Cost)
      Letters                    $1,400                $754             $2,154              $4,200            $2,046
      Parcels                    $1,600                $861             $2,462              $2,500               $38
      Expedited                  $3,500             $1,885              $5,385              $4,000           -$1,384
      All Products               $6,500             $3,500             $10,000             $10,700              $700
     Source: Michael Bradley’s testimony before the 2003 President’s Commission

The main point to be made is that all of these methods might be considered reasonable,
yet each allocation method provides a very different picture of product cost and
contribution. Although one can pick the method that seems “most” reasonable, there is
no sense in which it can be considered accurate or, for that matter, inaccurate.

The argument in favor of using FDC for pricing is that it is one way to ensure that the
prices are not only compensatory, in the sense of covering attributable cost, but make a
significant contribution to covering institutional costs as well. That is, if the Postal
Service were able to sell all its products at prices above fully distributed costs, it could
not fail to at least break even. FDC is used for at least some postal-related calculations.
The European Directive (2008/6/EC) gives explicit directions on how all costs should be
allocated when estimating the cost of universal service.36 Some, including UPS, have
argued that the Postal Service should move towards using FDC.37


36
     European Postal Directive requires that costs be allocated based on
       a ) costs which can be directly assigned to a particular service shall be so assigned; b) common costs,
       that is costs which cannot be directly assigned to a particular service, shall be allocated as follows: c)
       whenever possible, common costs shall be allocated on the basis of direct analysis of the origin of the
       costs themselves; d) when direct analysis is not possible, common cost categories shall be allocated
       on the basis of an indirect linkage to another cost category or group of cost categories for which a
       direct assignment or allocation is possible; the indirect linkage shall be based on comparable cost
       structures; when neither direct nor indirect measures of cost allocation can be found, the cost category
       shall be allocated on the basis of a general allocator computed by using the ratio of all expenses
       directly or indirectly assigned or allocated, on the one hand, to each of the reserved services and, on
       the other hand, to the other services.
Found at http://ec.europa.eu/internal_market/post/doc/legislation/2008-06_en.pdf.
37
   In his testimony before the President’s Commission on the Postal Service on February 20, 2003, Witness Mike
Eskew, Chairman and CEO of UPS, criticized the Postal Service for not allocating more of its costs, saying that it was


                                                             27
U.S. Postal Service Office of Inspector General                                                       March 20, 2012
A Primer on Postal Costing Issues                                                                   RARC-WP-12-008


The argument against using FDC for purposes of evaluating a product’s financial
performance is that it is too conservative and can actually lead to decisions that harm
the Postal Service financially. The opponents of FDC argue that FDC results in prices
that are too high to be competitive, and these high prices can stop a product from even
being offered (either because market data will show the market cannot bear the price or
because a customer refuses to agree to a high contract
price). They further argue that the Postal Service is          The argument against
worse off without these new products, because any              FDC is that it discourages
mark-up over attributable cost at least makes some             new volume even when
                                                               that new volume would
contribution toward institutional cost. Essentially, the
                                                               lead to increased
argument against FDC is that FDC discourages new               efficiencies for all mail.
volume even when that new volume would lead to
increased efficiencies for all mail. That said, some mechanism may be needed to
ensure that the Postal Service sets prices in such a way as to at least cover its costs.




essentially subsidizing its parcel service, due to the low cost attribution and low mark-ups. The testimony can be
found at http://govinfo.library.unt.edu/usps/offices/domestic-finance/usps/meetings.html.


                                                          28
U.S. Postal Service Office of Inspector General                                                       March 20, 2012
A Primer on Postal Costing Issues                                                                   RARC-WP-12-008



Appendix D               Short-Run versus Long-Run Marginal Costs

Another issue that has arisen with regard to cost
measurement is whether the Postal Service’s cost system          No one wants the
is accurately measuring product costs over this period of        products they use to
sustained excess capacity. The general complaint stems           bear the burden of the
                                                                 costs associated with
from the fact that no one wants the products they use to
                                                                 excess capacity
bear the burden of the costs associated with excess
capacity (e.g., idle workers, less-than-full trucks). The economic argument behind this
issue has to do with the time frame the Postal Service should use in estimating the
marginal costs of products and what costs vary with volume in that timeframe.

As mentioned briefly in the description of postal costing above, only costs that are
considered to vary with volume are attributed to products. Which costs vary with volume
are dependent on the time frame. The current costing framework estimates marginal
costs in the “long run,” with the long run being defined as a period of time long enough
so that important adjustments can be made.38 The development of long-run costs
includes a factor that suggests that there is an investment stream (or disinvestment in
the case of falling volumes) that ultimately goes along with volume changes over time.

Short run, on the other hand, refers to a time period so brief that certain important
adjustments cannot be made. In the short run, managers could make staffing changes
(e.g., use overtime, handle excess mail in manual operations). However, managers
could not make bigger changes such as changing the layout of a facility.

Short-run costs and long-run costs are often quite different as each includes the costs
that vary with volume within the timeframe. For example, the Postal Service may
ultimately respond to a reduction in volume by eliminating a facility, but it takes time to
sell a building. In this case, the short-run marginal cost of a product worked in such a
facility will be lower than its long-run cost, because the short-run cost does not include
the facility cost, since this cost does not vary with volume in the short run.

The recent criticism has been that the CRA overstates product costs by including costs
that exist due to excess capacity. This criticism gains more ground as the Postal
Service experiences sustained excess capacity and faces resistance in making changes
to its network to adjust to the excess capacity. Hence some have argued that the Postal
Service should move toward using short-run costs.

  Short-run costs are not    However, short-run costs are not necessarily a panacea.
  necessarily a panacea.     Short-run costs tend to have more fluctuations and are not
                             always lower than long-run costs. For example, assume
the Postal Service is successful in reducing its network, and makes so many reductions,
that in some plants it does not have enough equipment to sort all the mail. The short-run
38
   The “long run” refers to a time period long enough to allow for significant adjustments to the volume change to be
made. While the exact timeframe is not precisely defined, the time period historically considered appropriate for
postal costing is around three years.


                                                          29
U.S. Postal Service Office of Inspector General                                                      March 20, 2012
A Primer on Postal Costing Issues                                                                  RARC-WP-12-008


marginal cost would reflect the higher cost of manually sorting this mail. The long-run
marginal cost would not, as it would reflect an average from periods of both capacity
shortages and excesses. Under conditions of capacity shortage, long-run marginal
costs are actually lower than short-run marginal costs.

In fact, the fluctuation over time of short-run costs is the reason the Postal Service and
the PRC employ the long-run approach. If costs were to vary wildly over the period
during which postal prices are in play, it would be hard to decide if a given product was
making money or not.

In addition, there are a variety of complex issues involved in estimating short-run costs,
such as how to handle simultaneous overcapacity in some plants or areas, and capacity
shortage in others, how to choose an appropriate sample period for variability analysis,
etc. That said, there is no obvious reason the Postal Service could not produce some
approximation of short-run costs, particularly as an adjunct to the current CRA
approach. In fact, the Postal Service has produced rudimentary estimates of short-run
costs for the purpose of evaluating summer sales.

In determining the appropriate cost base for a potential summer sale39 in 2009, the
Postal Service identified those portions of its network that were not able, in the short
run, to reduce capacity as quickly as volume. Facility space is a good example of a cost
that cannot be added (or shed) quickly. The Postal Service then eliminated (or greatly
reduced) the marginal cost estimates in those areas. Table 7 compares short- and long-
run costs for selected products in FY 2008. Under this approximation, short-run costs
ranged approximately 40 percent to 60 percent lower in that year.

However it should be noted that for the following summer sale, different assumptions
were used. The FY 2008 analysis included eliminating significant delivery costs from the
short run, on the grounds that in that time period routes could not be eliminated.
However, by the time of the second summer sale, which required short-run costs for the
next fiscal year, some 12,000 routes had been eliminated. Hence, in that analysis
delivery costs were not removed from short-run costs and the resulting short-run and
long-run costs were much closer in magnitude.
     Table 7: Long-Run (LR) and Temporary Short-Run (SR) Attributable Costs per Piece (FY 2008)
                                                            Temporary SR
 Product                                                   Attributable Cost             LR Attributable Cost
 High Density and Saturation Letters                             $0.023                         $0.057
 High Density and Saturation Flats and Parcels                   $0.020                         $0.062
 Carrier Route                                                   $0.079                         $0.150
 Standard Regular Letters                                        $0.054                         $0.096
 Standard Regular Flats                                          $0.260                         $0.389
Source: U.S. Postal Service FY 2008 Summer Sale, Docket No. 2009-3




39
 The Postal Service had two summer sales, special incentives for senders to send mail during the summer, when
mail volumes are typically low. Unlike most discounts, summer sale incentives were only in effect for a few months.


                                                         30
U.S. Postal Service Office of Inspector General                                   March 20, 2012
A Primer on Postal Costing Issues                                               RARC-WP-12-008



It is due to these fluctuations that care needs to be          Short-run pricing is likely
taken in using short-run costs for pricing of products         to require more frequent
beyond something like the summer sales, which were             price adjustments as
only offered for a limited time. Short-run pricing is likely   short-run costs can
to require more frequent price adjustments, as short-          change rapidly.
run costs are likely to change rapidly.




                                                  31
U.S. Postal Service Office of Inspector General                                                    March 20, 2012
A Primer on Postal Costing Issues                                                                RARC-WP-12-008



Appendix E              Bottom-Up Costing

Currently, the workshare discounts are developed using the following steps:

        Identify the activities that will be avoided for each type of workshare.

        Estimate the cost savings associated with avoiding these activities.

        Set the discount as close to the estimated cost savings as possible. While the
         PRC encourages discounts being set at 100 percent of the cost savings, a
         concept referred to as the Efficient Component Pricing Rule (ECPR), there are at
         times reasons the discount is more or less than the cost savings.

This method is sometimes referred to as “top-down” because it begins with the total
incurred cost of the end-to-end product and estimates savings from off of that full cost.
Note that when the discount is set equal to the cost savings, the mark-up (the
“contribution” to the Postal Service) is the same for both the end-to-end and the
workshare product.

Some mailers feel that this methodology leads to prices that are unfairly high for
workshare mail. Their argument is two-fold:

        The estimated cost savings associated with workshare discounts do not always
         include all characteristics of workshare mail that make it less costly than end-to-
         end mail. Therefore the resulting discount is too low, and they are actually paying
         a higher true mark-up than end-to-end mail.

        Workshare mail is more elastic (more sensitive to price) than end-to-end mail and
         therefore should pay a lower, more competitive price.

These mailers believe that a more reasonable approach would be to develop prices
using a bottom-up approach, where each product is charged its marginal cost plus a
markup, based mostly on what the market will bear. For that to happen, however, there
has to be an estimate of marginal cost for each activity. That’s where the pricing
philosophy issue (bottom-up pricing versus ECPR) becomes a costing problem.40

While bottom-up costing may significantly improve the utility of the cost system as a tool
for management, there are difficulties associated with the creation of more
disaggregated cost information. It is both difficult and costly to develop marginal cost
estimates for each activity (e.g., culling letters of a certain address quality). Estimating
the marginal cost of every activity with the same degree of rigor currently in place by the
PRC for major products will present a significant resource challenge. And there exists
the issue of what to do if the sum of the marginal cost estimates does not add up to the
total cost. Would there need to be a method to reconcile the two? The methodology to

40
  Note that measures of demand elasticity would also be required in a bottom-up pricing approach, but this is beyond
the scope of this paper.


                                                        32
U.S. Postal Service Office of Inspector General                                 March 20, 2012
A Primer on Postal Costing Issues                                             RARC-WP-12-008


reconcile would most likely be a contentious issue, as currently there is a lot of debate
about the manner in which the workshare models are reconciled to CRA data.

Even if the Postal Service wasn’t under a resource constraint, it is unclear if it would be
possible to develop accurate and usable marginal costs by activity. Mail sorting
procedures vary widely from plant to plant, so there would still be considerable
averaging, unless reported costs are allowed to vary from area to area. If the latter, the
impact on prices is unclear. Some estimates of activities are already included in the
workshare cost avoidance models, but the actual mail flow may be more complicated
than can be captured in a model, especially as it varies from plant to plant. In fact, the
activities most difficult to model, such as allied labor activities, are often the ones with
the most costs.

It is not clear how far up from “bottom-up,” costing is supposed to go. The Postal
Service currently has information on mail processing costs, as a result of the cost
avoidance studies, but whether separate costs for each different delivery and/or retail
activity are required in this approach is not clear.




                                                  33
U.S. Postal Service Office of Inspector General                                                   March 20, 2012
A Primer on Postal Costing Issues                                                               RARC-WP-12-008



Appendix F              New Data Sources

As mentioned above, one of the steps involved in estimating marginal costs is
distributing volume variable costs to product using a distribution key. Typically these
distribution keys are from sampling systems including the mail processing In-Office Cost
System (IOCS), the Carrier Costing System (CCS), and the Transportation Accounting
System (TRACS). Mailers and others have suggested that some of these sampling
systems either be replaced or enhanced with systems that collect census data (systems
that do not rely on a sample). The Postal Service does claim to examine and use
census data as distribution keys when appropriate. The Postal Service’s finance
department conducts ongoing examinations of new data as they become available, but
some have argued that it needs to do more.

The new data sources suggested for use in cost estimation include Surface Visibility
data, End-of-Run data, Intelligent Mail barcode data (IMb), and the mail images lifted
from advanced facer/cancellers at plants.41 For example, the OIG recommended the
use of Surface Visibility data, linked to End-of-Run data, should replace the TRACS
data currently used to distribute purchased transportation volume variable costs. In
addition, mail images have been suggested as useful in distributing mail processing
costs to products, currently accomplished via the IOCS. In general, the Postal Service
has disputed the readiness of census data for cost estimation, but is actively engaged in
pursuing this effort as the new data become available and are shown to be accurate.

The Intelligent Mail barcode is a new barcode used to sort and track letters and flats.
The data produced by the system should provide greater visibility into the mail stream.42
These data are most often suggested as a replacement for IOCS, the work sampling
system currently used to produce distribution keys for mail processing labor. The Postal
Service should certainly pursue the use of IMb data, as well as images, as supplements
or substitutes where savings are possible. However, there are certain positive
properties of the current data collection systems that should not be lost in the transition
to census systems.

IOCS samples mail processing and city carrier in-office employees at a moment in time
in order to quantify the labor time expended in a given activity and caused by the
provision of a specific product. Though it can be criticized for the size of the sample and
how it is selected, the system does embody one powerful characteristic: it measures
what is actually happening. If a flat shows up on a letter sorting machine, it gets some of
the cost of the labor running that machine, even if the flat is not supposed to be there at
all. This virtue sets IOCS apart from any form of modeled cost or standard cost that is
forced to assume that postal activities occur, in every case, the way they are supposed
to occur.

41
    U.S. Postal Service Office of Inspector General, Transportation Cost System Inputs into the Cost and Revenue
Analysis Report, Report No. CRR-AR-11-004, September 19, 2011, http://www.uspsoig.gov/foia_files/CRR-AR-11-
004.pdf.
42
   IMb barcodes are not on all mail.


                                                        34
U.S. Postal Service Office of Inspector General                               March 20, 2012
A Primer on Postal Costing Issues                                           RARC-WP-12-008


One problem with using IMb data as a replacement for IOCS is that it does not provide
a means for tracking labor costs. While IMb data is designed to tell you that a product
has been in a certain operation, it cannot tell you how much labor has been expended in
working that piece. This is precisely what a work sampling system like IOCS is designed
to do. If some product (a heavier piece, for example) requires more time to work in an
activity, then it has a greater probability of being selected, and the product gets a
correspondingly higher cost in that activity. It is unclear how mail processing costs could
be developed without this measurement of labor cost.

Another problem with IMb is that while the Postal Service could potentially do scans on
its automation equipment, it currently does not have the technology needed to do scans
in manual operations, platform operations, and moving containers. This is especially
important since these are areas that have a lot of costs.

The Postal Service should continue to examine the possibility of using new data to
support its cost development. However, it is unclear if the suggested alternatives in their
current state are mature and comprehensive enough to be used to support the cost
systems in any material way.




                                                  35
U.S. Postal Service Office of Inspector General                                                    March 20, 2012
A Primer on Postal Costing Issues                                                                RARC-WP-12-008



Appendix G              Timeliness of Cost Data

Unfortunately, as highlighted in OIG Audit Report CRR-AR-10-002,43 Postal Service
cost studies are out of date.44 In some areas, this causes little harm as there has been
little change in the underlying cost generating activity since the last study update.
However, in other areas, operations have changed in ways that make the old studies
inapplicable. A good example of the latter is city delivery cost, which, since it was last
studied in 2004, has experienced significant reduction in delivered volume, the
introduction of flat sequencing machines, and the elimination of many routes.45

Under the Postal Reorganization Act, the Postal Service initiated studies as resources
were available, generally on a three-year schedule. With the new law in 2006, the PRC
made it very clear it wanted a different, and much more inclusive, procedure that
included the PRC laying out a priority list of studies and allowing interested parties to
comment on the list and on how studies should be conducted.46 The idea was that the
PRC would oversee the studies and involve interested parties. This rule has alleviated
stakeholders’ concerns about the transparency of changes to the cost methodology;
however it may have had the unintended effect of placing additional roadblocks in the
way of timely updates to cost studies. While the Postal Service has requested approval
for small changes to its costing systems, it has not requested approval for more
significant changes. The PRC has recently issued decisions that should move the
process forward, and the Postal Service has begun planning for larger studies.

Stakeholders, including the Postal Service, the PRC, the OIG, and mailers, need to
combine efforts to develop a system in which at least the most important studies can be
completed on a frequency that is more responsive to the changing business needs of
the Postal Service. The key factors in evaluating the criticality of a study update are 1)
the resources required, 2) the impact on product costs, and 3) the extent of operational
changes since the last update.




43
   See the U.S. Postal Service Office of Inspector General Report Management of Special Studies, Report No
CRR-AR-10-002, March 19, 2010, http://www.uspsoig.gov/foia_files/CRR-AR-10-002.pdf.
44
   The Annual Compliance Determination (ACD) contains a description of variability studies and the year in which
they were conducted.
45
   For an analysis of the asymmetry in delivery cost response as volume rises or falls, see Michael D. Bradley, Jeff
Colvin, and Mary Perkins, “Do Volume Increases and Decreases have the Same Effect on Labor Hours?”,
forthcoming in Expanding Competition in the Postal and Delivery Sector (2012).
46
   See Docket No. RM2008-4, Order 203 Notice of Final Rule Prescribing Form and Content of Periodic Reports, April
2009, pp. 10 -23.


                                                        36
